                                     CLOSEOUT FOR ~92h060027




complainants apparently believed that the subject had committed
misconduct in that he had submitted a proposal to NSF even though
he was not affiliated with a science or engineering department and
in that he may have misrepresented his affiliation as part of his
proposal.
     NSF regulations in no way prohibit faculty in business schools
from submitting proposals. The NSF Grants for Research and
Education in Science and Engineering application guide (GRESE)
specifies sub'ect matters appropriate for NSF grants, but in no way
forbids
           1       chool faculty from applying. The subject had a
clear rlg t to submit a proposal and therefore cannot have
committed misconduct in doing so.
     The subject's proposal clearly and accurately states his
institutional affiliation, both on the cover page and in the
executive summary on page I. Hence he is not guilty of
misrepresentation.
     This case should be closed and no further action taken.



Staff Scientist, Oversight
Concurrence :


                                  i/ 4
Donald E. Buzzelli
Deputy Assistant Inspector General,
Oversight


%       yjwL-b
James J. Zwolenik                        .7/l3l~3
Assistant Inspector General for Oversight




~ e ~ u tInspector
          y        General


cc:   I n s p e c t o r General
      A I G f o r Oversight
